Report No. D-2010-048                March 25, 2010






       DOD Methodology for the Valuation of Excess, 

         Obsolete, and Unserviceable Inventory 

          and Operating Materials and Supplies


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DLA                           Defense Logistics Agency
DRMS                          Defense Reutilization and Marketing Service
EOU                           Excess, Obsolete, and Unserviceable
FMR                           Financial Management Regulation
OM&S                          Operating Materials and Supplies
SFFAS                         Statement of Federal Financial Accounting Standards
                                    INSPECTOR GE NERAL
                                   DEPARTM ENT OF DEFENSE 
 

                                      400 ARMY NAVY DRIVE 
 

                                 ARLINGTON, VIRGINIA 22202 ·4704 
 





                                                                               March 25, 20 I0



MEMORANDUM FOR UNDER SECRETAR Y OF DEFENSE
               (COMPTROLLER)fCHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE LOGISTICS AOENCY

SUBJECT: DOD Methodology for the Valuation of Excess, Obsolete, and Unserv iceable
          Inventory and Operating Materials and Supplies (Report No. D-201O-048)

We arc providing this report fo r review and comment. We cons idered management comments on
a draft of this report when preparin g the final report.

DOD Directive 7650.3 requires that recommendations be reso lved promptly. The Defense
Logistics Agency comments on Recommendat ions A.I. A.2, and A.3 we re not responsive.
Therefore, we request add itional cOlllments from the Defense Logistics Agency on
Recommendations A.I, A.2. and A.3 by April 26, 2010.

If poss ible, send a .pdf file containing your comments to aud colu@dodig.mil. Copies of you r
cOllunents must have the actual signahll'e of the authorizing official for your organization. We are
unable to accept the /Signed/ symbol in plac.e of the actual signature. If you arrange to send
classified comments e lectron ically. you must send them over the SECRET Internet Protocol
Router Network (SI PRNET).

We appreciate the courtesies extended to the staff. Please direct questio ns to me at (703) 60 1­
5868 (DSN 329-5868).



                                              /~a,/ll~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations
Report No. D-2010-048 (Project No. D2009-D000FR-0212.000)                        March 25, 2010

               Results in Brief: DOD Methodology for the
               Valuation of Excess, Obsolete, and
               Unserviceable Inventory and Operating
               Materials and Supplies
                                                        Without corrective action on the internal control
What We Did                                             weakness identified in the report, future
The Under Secretary of Defense                          estimates of DoD excess, obsolete, and
(Comptroller)/Chief Financial Officer requested         unserviceable inventory and operating materials
us to evaluate the reasonableness of the DOD            and supplies will be misstated.
methodology for valuing excess, obsolete, and
unserviceable inventory and operating materials         What We Recommend
and supplies. DOD based its methodology on a            The Director, DLA, should modify the existing
methodology that the Defense Logistics Agency           DLA net realizable value methodology.
(DLA) developed to value its excess, obsolete,
and unserviceable inventory. We evaluated the           The Under Secretary of Defense
DLA methodology and its applicability                   (Comptroller)/Chief Financial Officer should
throughout the DOD Military Departments.                suspend implementation of the provisions in the
                                                        DOD Financial Management Regulation,
What We Found                                           volume 4, chapter 4, for valuing excess,
The DLA methodology for estimating the net              obsolete, and unserviceable inventory and
realizable value for its FY 2008 $5.8 billion           operating materials and supplies held by the
excess, obsolete, and unserviceable inventory is        Military Departments and coordinate with the
a good starting point. However, the                     Military Departments and the U.S. Army Joint
methodology does not produce a reasonable               Munitions Command to develop methodologies
estimate in accordance with generally accepted          to value excess, obsolete, and unserviceable
accounting principles.                                  inventory and operating materials and supplies,
                                                        including munitions and tactical missiles.
The Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer revised           Management Comments and
the DOD Financial Management Regulation to              Our Response
require the Military Departments to use the             The Director, DLA, disagreed with the
DLA net realizable value methodology before             recommendations and provided nonresponsive
assessing whether it would result in a reasonable       comments. We request that the Director
estimate. The composition of the $5.8 billion in        reconsider his position and provide additional
DLA excess, obsolete, and unserviceable                 comments. The Under Secretary of Defense
inventory is not representative of the                  (Comptroller)/Chief Financial Officer agreed
composition of the $5.2 billion in Military             with the recommendations and provided fully
Departments’ excess, obsolete, and                      responsive comments. The full text of all
unserviceable inventory and operating materials         comments appears in the Management
and supplies.                                           Comments sections of the report. Please see the
                                                        recommendations table on the back of this page.


                                                    i
Report No. D-2010-048 (Project No. D2009-D000FR-0212.000)             March 25, 2010

Recommendations Table
Management                      Recommendations       No Additional Comments
                                Requiring Comment     Required
Under Secretary of Defense                            B.1, B.2
(Comptroller)/Chief Financial
Officer

Director, Defense Logistics     A.1, A.2, A.3
Agency


Please provide comments by April 26, 2010.




                                                ii
Table of Contents

Introduction                                                               1


      Objectives                                                           1

      Background                                                           1

      Review of Internal Controls                                          3


Finding A. DLA Methodology for Estimating Net Realizable Value of EOU


Inventory                                                                  4


      Recommendations, Management Comments, and Our Response              12 


Finding B. Application of the DLA Net Realizable Value Methodology to 

DOD Military Department EOU Inventory and OM&S                            14 


      Recommendations, Management Comments, and Our Response              18 


Appendices

      A. Scope and Methodology                                            20 

      B. DOD Net Realizable Value Methodology                             22 

      C. Flowchart of DLA Net Realizable Value Methodology                27 


Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer    28 

      Defense Logistics Agency                                            30 


Glossary                                                                  33 

Introduction
Objectives
We performed this audit at the request of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. Our objective was to evaluate the reasonableness
of the DOD methodology for valuing excess, obsolete, and unserviceable (EOU)
inventory and operating materials and supplies (OM&S). 1 Specifically, we determined
whether the methodology and assumptions provided a reasonable estimate of the net
realizable value for financial reporting and were in accordance with generally accepted
accounting principles. See Appendix A for a discussion of the scope and methodology,
and for prior coverage related to the objective.

Background
Defense Reutilization and Marketing Service
Military Departments and Defense agencies turn in excess± property to the Defense
Reutilization and Marketing Service (DRMS). DRMS is a DLA organization that
manages DOD’s surplus property program by disposing of the excess DOD property.
DRMS first offers property to DOD organizations for reutilization. If DOD organizations
do not reutilize the excess property, DRMS offers it for transfer or donation to other
Federal agencies, state or local governments, or other qualified organizations. DRMS
also offers the excess property for sale± or grant± to other countries through its foreign
military sales program. For useable items that DRMS does not dispose of by these
means, DRMS turns them over to a contractor for public sale at a contracted rate of
return. The most recent DRMS contract for sale of usable items requires the contractor to
pay 1.8 percent of the item’s acquisition value.± In FY 2008, more than
56,000 military units turned in over 3.5 million items to DRMS.

Defense Logistics Agency Inventory
DLA is DOD’s largest logistics combat support agency. DLA supplies the Military
Departments with consumable items and repair parts, and it helps them to dispose of
unneeded materiel and equipment. DLA maintains inventory through its inventory
control points.± DLA eventually disposes of excess,± obsolete,± and unserviceable±
(EOU) inventory± through DRMS. At the end of a financial reporting period, DLA
inventory control points report on-hand EOU inventory that they have not turned in to
DRMS. DLA managed approximately $5.8 billion of the $11.3 billion DOD excess,
obsolete, and unserviceable inventory and OM&S as of September 30, 2008.




1
  This audit focused on the valuation of DLA and Military Department EOU inventory and OM&S and did


not specifically cover any other Defense agencies or DOD organizations.


±
  Designates a term explained in the glossary.




                                                  1


Military Department Inventory and OM&S
The Military Departments maintain inventory through their respective inventory control
points to support their customers. The Military Departments also report operating
materials and supplies± (OM&S) that are maintained throughout their respective field
units and organizations. The Military Departments eventually dispose of EOU inventory
and OM&S through DLA’s DRMS. At the end of a financial reporting period, the
Military Departments report on-hand EOU inventory and OM&S that they have not
turned over to DRMS. The Military Departments managed approximately $5.2 billion of
the $11.3 billion DOD EOU inventory and OM&S as of September 30, 2008.


Federal Government Inventory Valuation Policy
The Federal Accounting Standards Advisory Board’s Statement of Federal Financial


Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property,”


October 27, 1993, provides the inventory valuation policy for Federal agencies.


SFFAS No. 3 represents the generally accepted accounting principles for DOD inventory


valuation. 


SFFAS No. 3 defines inventory as tangible personal property held for sale, in the process


of production for sale, or for use in the production of goods for sale or in the provision of


services for a fee. Excess inventory exceeds the demand expected in the normal course 

of operations because the amount on hand is more than can be sold in the near future. 

Obsolete inventory are items organizations no longer need because of changes in 

technology, laws, customs, or operations. Unserviceable inventory is damaged stock that


is more economical to dispose than to repair.



SFFAS No. 3 defines OM&S as tangible personal property used in normal operations. 

Excess OM&S exceed the amount expected to be used in normal operations because the 

amount on hand is more than what can be used in the foreseeable future. Excess OM&S


also do not meet management's criteria to hold in reserve for future use. Obsolete OM&S


are items organizations no longer need because of changes in technology, laws, customs, 

or operations. Unserviceable OM&S are items organizations cannot use in operations


because of physical damage.



SFFAS No. 3 specifies valuing EOU inventory and OM&S at their expected net


realizable value.± Net realizable value is the estimated amount organizations can recover


from selling or disposing of items reduced by the estimated costs of completing the sale 

or disposal. The difference between the carrying amount± before identification of EOU


items and its expected net realizable value is recognized as a loss (or gain) and either


separately reported or disclosed.






                                              2


DOD Net Realizable Value Methodology
In May 2009, the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer updated DOD 7000.14-R, “DOD Financial Management Regulation (FMR),”
volume 4, “Accounting Policies and Procedures,” chapter 4, “Inventory and Related
Property,” to include details on a methodology for use by all DOD organizations (DLA,
Military Departments, and Defense agencies) to estimate the net realizable value of DOD
EOU inventories and OM&S (see Appendix B for the details on the DOD methodology).
DOD based its methodology on a methodology DLA developed to value its EOU
inventory. DLA based its methodology on the composition of inventory that DRMS
maintained.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer methodology for estimating the net realizable value of DOD EOU
inventory and OM&S. Specifically, the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer revised the DOD FMR to require the use of the
DLA net realizable value methodology before assessing whether it would result in a
reasonable estimate of the Military Department EOU inventory and OM&S.
Implementing recommendations B.1 and B.2 in this report will improve DOD internal
controls over estimating the net realizable value of DOD EOU inventories and OM&S.
We will provide a copy of the report to the senior official responsible for internal controls
in the Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer.




                                             3


Finding A. DLA Methodology for Estimating
Net Realizable Value of EOU Inventory
The DLA methodology for estimating the net realizable value for its $5.8 billion EOU
inventory is a good starting point towards bringing DLA in compliance with SFFAS
No. 3. However, the DLA methodology does not produce a reasonable estimate that fully
complies with SFFAS No. 3, and overstates the value of items DRMS disposes of
through DOD reutilizations, transfer or donation to non-DOD organizations, and foreign
military sales. The overstatements occurred because the DLA methodology:

   •		 assigns a 100 percent recovery value for used and unused items in serviceable
       condition instead of lesser values specified in the DOD FMR;

   •		 gives value to items disposed of through transfer or donation without
       reimbursement to other Federal agencies, state, and local governments; and

   •		 over estimates revenues for items disposed of through the foreign military sales
       program.

If DLA had used its methodology for FY 2008 financial reporting, it would have
overstated its EOU inventory value by approximately $71 million. If DLA does not
modify the methodology, it will overstate future estimates of DLA EOU inventory.

DLA EOU Inventory
DLA maintains EOU inventory through its inventory control points and values the
inventory at its historical± or latest acquisition cost.± Through DRMS, DLA maintains
excess inventory that its inventory control points, the Military Departments, and other
DOD organizations turn in. DRMS inventory is valued at an estimated historic cost,
which is the acquisition value that the disposing organization records on a disposal
turn-in document. DLA must revalue the EOU inventory that its inventory control points
and DRMS maintain from estimated or actual historical cost to its net realizable value.
Table 1 provides a breakout of the $5.8 billion DLA EOU inventory value for FY 2008
by managing organization prior to any net realizable value adjustment.

         Table 1. DLA FY 2008 EOU Inventory at Historic Cost Value
           Managing Organization                    Inventory Value
 DLA DRMS                                            $5,806,987,000
 DLA Inventory Control Points                             5,007,000
  Total                                              $5,811,994,000




                                           4


DLA Net Realizable Value Methodology
The DLA methodology for estimating the net realizable value for its EOU inventory is a
good start towards bringing DLA in compliance with SFFAS No. 3 because DLA
previously did not assign a value to these items. DLA developed a complex, multi-step,
estimation methodology that calculates a net realizable value factor based on how DRMS
disposed of items during the previous fiscal year. The DLA methodology applies the net
realizable value factor to the EOU inventory that DLA inventory control points and
DRMS maintain (see Appendix B for details on the overall methodology). DRMS
personnel stated that they dispose of items using five primary means called “categories of
disposition:”

   •		 DOD Reutilization Disposition Category± - A DOD organization identifies a use
       for an item and orders it from DRMS.

   •		 Transfer and Donation Disposition Category± - Other Federal agencies or state or
       local governments identify a use for an item and orders it from DRMS.

   •		 Foreign Military Sales Disposition Category± - Foreign governments approved to
       receive excess Defense articles order the item from DRMS. These orders are
       generally grants (free-issue) but sometimes countries reimburse DOD.

   •		 Sold and Removed Useable Property Disposition Category± - If DRMS is unable
       to dispose of an item through other means and DOD does not restrict sale to the
       general public, DRMS sells it to a contractor at a fixed rate and the contractor
       sells the item to the public.

   •		 Expended to Scrap Disposition Category± - If DRMS is unable to dispose of an
       item through other means and DOD restricts sale to the public, DRMS sells the
       item as scrap material to a contractor based on current market rates.

The DLA methodology calculates estimated revenue, or recoveries, for DOD
reutilizations, transfer and donations, and foreign military sales. The DLA methodology
makes several assumptions when calculating estimated recoveries for these categories of
disposition. In addition, the DLA methodology uses the actual revenues received for the
categories of sold and removed useable property and expended to scrap. We focused on
the reasonableness of the methodology and assumptions the DLA methodology used to
calculate the estimated revenue, or recoveries, for DOD reutilizations, transfer and
donations, and foreign military sales.

For DOD reutilizations, transfers and donations, and foreign military sales, the DLA
methodology estimates a value based on the condition code± an organization assigns to an
item when it turns it in to DRMS. The values are generally based on the excess material
fair value± rates established in DOD FMR, volume 15, “Security Assistance Policy and
Procedures,” chapter 7, “Pricing.” The DLA methodology does not always use the exact
excess material fair value rate that the DOD FMR specifies for each condition code.



                                            5


DOD assigns a 50 percent and 40 percent rate for condition code A-1 and A-4 items
respectively; however, the DLA methodology uses a 100 percent recovery rate for
condition code A-1 and A-4 items. Table 2 illustrates the item condition codes that the
DLA methodology uses and the corresponding DOD FMR fair value rates 2 as a
percentage of prices, 3 as well as the valuation percentages that DLA uses.

             Table 2. Item Condition Codes and DOD Valuation Percentages
                                                                  Valuation
         Item                                                     Percentage
      Condition                                                DOD
        Codes                         Definitions              FMR        DLA
          A-1        Serviceable, unused – good                 50%       100%
          A-4        Serviceable, used – good                   40        100
    B-1, C-1, D-1, Serviceable with qualification, unused in
     B-4, C-4, D-4   fair condition; used in good condition     30         30
                     Serviceable with qualification, unused in
     D-7, E-7, F-7   fair condition; used in good condition;    20         20
                     unserviceable in good condition requiring
                     minor repairs
                     Serviceable in poor condition;
          H-7        unserviceable in poor condition;           10         10
                     unserviceable requiring minor repairs
    F-X, G-X, H-X Unserviceable, requiring major repairs         5           5

The DLA methodology calculates the estimated recoveries for the DOD reutilizations,
transfers and donations, and foreign military sales disposition categories and adds them to
the sold and removed usable property and expended to scrap sales. The methodology
then calculates a net recovery value by subtracting DRMS annual expenses from the
estimated recoveries. The methodology divides the net recovery value by the total
acquisition value of all items disposed of through the five disposition categories and the
resulting percentage is the “net realizable value factor.” The methodology then
multiplies the net realizable value factor by the DLA fiscal year-end EOU inventory
balance to arrive at an estimated net realizable value (see Appendix C for a flowchart of
the DLA net realizable value methodology).

DLA applied its methodology to DLA EOU inventory for FY 2006 through FY 2008.
DLA did not report the methodology results on its financial reports but instead reported
an EOU inventory net value of zero for FY 2006 through FY 2008. DLA documented
the details supporting each year’s calculations and net realizable value estimates. We
analyzed and recalculated the estimated DLA EOU inventory balances over the same


2
  DOD uses more condition codes than listed in Table 2. For purposes of this report, we only list the


condition codes that the DLA methodology uses.


3
  DLA uses the acquisition value of the item from the disposal turn-in document as the price of the item.




                                                      6


3-year period. Table 3 provides DLA’s net realizable value factor and EOU inventory
balances for FY 2006 through FY 2008.

                      Table 3. DLA Net Realizable Value Factor and
                          EOU Inventory Net Realizable Value
  Reporting          EOU Inventory       Net Realizable       EOU Inventory Net
    Period               Value           Value Factor*        Realizable Value**
   FY 2006           $7,239,827,756           3.57               $258,240,424
   FY 2007            4,926,768,142           2.65                130,595,526
   FY 2008            5,811,994,000           2.21                128,190,978
* Rounded.


** These numbers are based on the unrounded DLA net realizable value factor.



DRMS Actual Recoveries
DRMS actual recoveries for sales of EOU items are limited to the disposition categories
of sold and removed useable property, expended to scrap, and a small portion of foreign
military sales. These sales are at a significantly lesser amount than the historic cost DOD
originally paid to acquire the items. For example, DRMS only recovers 1.8 percent of an
item’s acquisition cost for sold and removed useable property. There are no actual
recoveries for the DOD reutilization or transfer and donation disposition categories
because items disposed of by these methods are given away without reimbursement.
According to SFFAS No. 3, net realizable value± is the estimated amount organizations
can recover from selling or disposing of items reduced by the estimated costs of
completing the sale or disposal. Any potential cost avoidance or other value that the
DLA methodology assigns to EOU items should be backed by evidence that will support
an audit.

Valuation of DOD Reutilizations
The DLA methodology for estimating the net realizable value of EOU inventory
overstates the value for items DRMS disposed of through DOD reutilizations. The
overstatement occurs because the DLA methodology assigns a recovery value of
100 percent of the acquisition cost for condition code A-1 and A-4 items to calculate cost
avoidance to DOD, but it does not contain or reference adequate support to justify
exceeding the DOD FMR 50 percent and 40 percent excess material fair value rates. In
the absence of detailed support for the 100 percent cost avoidance, a more conservative
estimate is appropriate. For a successful future audit of the cost avoidance associated
with DOD reutilizations, DLA will need to maintain supporting documentation that
auditors can review. The DLA methodology did not contain adequate support to justify
exceeding the DOD FMR excess material fair value rates.

For FY 2008, the DLA methodology estimated $565,414,547 in cost avoidance for DOD
reutilizations. The DLA methodology assumes DOD organizations that reutilized
condition code A-1 and A-4 EOU inventory would have otherwise purchased those items
at their full acquisition cost. Therefore, the DLA methodology assumes DOD avoids the
cost of the potential purchase. There is merit to DLA asserting that DOD reutilizations


                                                   7


represent a certain level of cost avoidance because DOD organizations can sometimes
avoid purchasing new items. However, the DLA methodology lacked support to show
that all DOD reutilizations of condition code A-1 and A-4 items resulted in DOD
avoiding an associated event of having to purchase those same items at 100 percent of
their material acquisition value.

DOD organizations reutilize EOU inventory free of charge. It is not reasonable to
assume that all DOD organizations would purchase EOU items at their full acquisition
value. The most probable case of a DOD reutilization where DOD actually avoids the
cost of a new item occurs when a DOD inventory control point is out of stock and obtains
an item from DRMS to fulfill demands. Our analysis of FY 2008 DOD reutilizations
found that DOD inventory control point reutilizations represented only 10 percent of all
DOD reutilizations.

In addition, a prior DOD Inspector General audit found that organizations reutilized items
from DRMS without a valid requirement and did not adequately account for the items so
it could be physically traced. 4 Because DOD organizations may not always have a
documented valid requirement to reutilize an item, we cannot determine whether DOD
actually avoids the associated full acquisition cost of purchasing a new item in these
instances.

Considering the uncertainty surrounding the potential value of DOD reutilizations and the
absence of verifiable supporting data, a more conservative valuation approach is
appropriate. Specifically, the DOD FMR excess material fair value rates of 50 percent
for condition code A-1 items and 40 percent for condition code A-4 items are more
appropriate. Until DLA can produce sufficient data to show measurable cost avoidance
associated with DOD reutilizations, the DLA methodology recovery rates should not
exceed the FMR fair value rates. Table 4 illustrates our calculation of the estimated
amounts for DOD reutilizations that the DLA methodology overstated for FY 2006
through FY 2008.

            Table 4. DLA Overstated Recoveries for DOD Reutilizations
     Reporting        DLA Estimated     Audit Estimated    DLA Methodology
       Period           Recoveries         Recoveries         Overstatement
      FY 2006          $627,039,035       $382,802,651         $244,236,384
      FY 2007           681,616,167        418,548,057          263,068,110
      FY 2008           565,414,547        380,264,059          185,150,488

Valuation of Transfers and Donations
The DLA methodology for estimating the net realizable value of EOU inventory
overstates the value for transfers and donations to non-DOD organizations. The


4
 DOD IG Report No. 93-132, “Condition and Economic Recoverability of Materiel in the Disposal
Process,” June 30, 1993.


                                                 8


overstatement occurs because the methodology gives value to items disposed of through
transfer or donation to other Federal agencies and to state and local governments
although these organizations do not reimburse DOD for the items. Unlike DOD
reutilizations that have a potential economic benefit± to DOD, transfers and donations to
non-DOD organizations do not represent economic benefits that DOD can obtain or
control.

For FY 2008, the DLA methodology estimated $82,440,264 in total recoveries for
transfers and donations. Net realizable value is the estimated recovery amount from
disposing of an item by sale or any other method. The DLA methodology includes a
component to calculate estimated recoveries on items transferred and donated to other
Federal agencies and to state and local governments. However, it is not reasonable to
estimate a recovery for these items because they do not meet the definition of a DRMS
asset.± DRMS does not actually sell them so there is no recovery amount resulting from
the transaction.

For an item to meet the definition of an asset, the Federal Government entity must own it
and the item must have a probable future economic benefit that the owning entity can
obtain or control. An economic benefit is a benefit quantifiable in terms of money, such
as revenue, net cash flow, or net income. For DOD EOU items to be deemed as assets,
DRMS should dispose of them through a monetary transaction (sale) or the items should
otherwise represent an economic benefit to DOD. In general, a sale is a transaction
between two parties where the buyer receives goods, services, or assets in exchange for
money. DRMS transfers or donates items to other Federal agencies or state and local
governments without reimbursement and a sale does not occur.

It is not reasonable to estimate recoveries for items disposed of through transfer and
donation because the actual recoveries are zero. In addition, there is no cost avoidance to
DOD because DRMS transfers or donates these items to non-DOD organizations.
Table 5 illustrates our estimated amounts for transfers and donations that the DLA
methodology overstated for DLA FY 2006 through FY 2008.

         Table 5. DLA Overstated Recoveries for Transfers and Donations
   Reporting       DLA Estimated      Audit Estimated       DLA Methodology
     Period          Recoveries          Recoveries          Overstatement
    FY 2006         $109,022,476              0               $109,022,476
    FY 2007           79,020,224              0                 79,020,224
    FY 2008           82,440,264              0                 82,440,264

Valuation of Foreign Military Sales
The DLA methodology for estimating the net realizable value of EOU inventory
overstates the value for foreign military sales. The overstatement occurs because the
DLA methodology over estimated sales revenues for items disposed of through the
foreign military sales program.



                                             9
For FY 2008, the DLA methodology estimated $39,125,133 in total recoveries for
foreign military sales. Section 2321, title 22, United States Code, authorizes the
President to transfer excess Defense articles (EOU items) to certain countries approved
for military assistance programs only if such articles are drawn from existing DOD stocks
and funds available to the DOD for the procurement of defense equipment are not
expended in connection with the transfer. Excess Defense articles can be transferred
either on a grant basis (without reimbursement for the item) or on a sales basis (with
reimbursement). Further, section 2321, title 22, United States Code specifies that a grant
basis is the preferred basis because of the potential foreign policy benefit to the United
States.

While items disposed of by grant through military assistance programs represent political
capital for the United States, these items do not represent assets because the United States
donates them to other countries without reimbursement. Therefore, it is not reasonable to
assign a net realizable value to these items because they do not represent an economic
benefit that DOD can obtain or control.

Nearly all of the transactions DRMS recorded as foreign military sales during FY 2006
through FY 2008 represented grants. In addition, for the few transactions that did
represent sales, the sales were significantly less than the valuation factors applied by the
DLA methodology. To test the reasonableness of the DLA methodology for estimating
the value of foreign military sales, we obtained the actual DRMS sales revenues for
FY 2006 through FY 2008 and compared those figures to the DLA estimated sales
values. Table 6 illustrates the results of this comparison.

            Table 6. DLA Overstated Recoveries for Foreign Military Sales
                                                                      DLA
                        DLA Estimated      Audit Identified       Methodology
    Reporting Period        Sales            Actual Sales*       Overstatement
       FY 2006           $43,414,603           $304,235            $43,110,368
       FY 2007            32,675,185             119,210            32,555,975
       FY 2008            39,125,133             108,313            39,016,820
* Based on actual DRMS sales revenues.

DRMS actual sales revenue 5 represented less than one percent of the DLA methodology
estimated sales value for FY 2006 though FY 2008. Because DRMS receives very little
actual return on its foreign military sales program, the DLA methodology over estimated
the net realizable value for the related items. Because the DLA methodology relies
heavily on the previous fiscal years disposal operations to estimate future recoveries, it is
not reasonable to use estimates for foreign military sales values when actual sales
revenues are available.


5
 Actual sales revenue includes a 3.5 percent packaging, crating, and handling fees charged on most sales.
Actual sales for FYs 2006 through 2008, excluding fees, were $172,735, $2,209, and $1,313, respectively.
DRMS transfers this revenue to the Defense Security Cooperation Agency.


                                                   10


Financial Reporting Impact
If DLA had used its methodology for FY 2008 financial reporting, it would have
overstated its EOU inventory value by approximately $71 million (see Table 8 for
details). DLA’s overestimated recoveries for DOD reutilizations, transfers and
donations, and foreign military sales cause an overstatement of the DLA net realizable
value factor. We recalculated the DLA net realizable value factor for FY 2006 through
FY 2008 based on our audit adjustments for DOD reutilizations, transfers and donations,
and foreign military sales. Table 7 illustrates the annual impact of our audit adjustments.

Table 7. Annual Impact of Audit Adjustments on DLA Net Realizable Value Factor
                                                              Net Realizable
 Reporting     DLA Net Realizable     Audit Net Realizable    Value Factor
   Period         Value Factor*         Value Factor*           Variance
  FY 2006             3.57                    1.55                -2.02
  FY 2007             2.65                    1.19                -1.46
  FY 2008             2.21                    0.99                -1.22
*Rounded

The DLA methodology multiplies the net realizable value factor by the EOU inventory
value to arrive at the estimated net realizable EOU inventory balance. Table 8 illustrates
the annual impact that our audit adjustments to the estimated values for DOD
reutilizations, transfers and donations, and foreign military sales had on the DLA
estimated EOU inventory net realizable value for FY 2006 through FY 2008.

 Table 8. Annual Impact of Audit Adjustments on DLA Estimated EOU Inventory
                             Net Realizable Value
                                   DLA Net        Audit Net       DLA
 Reporting       DLA EOU          Realizable      Realizable   Methodology
   Period    Inventory Value*       Value*         Value**    Overstatement
  FY 2006     $7,239,827,756     $258,240,424   $112,363,209   $145,877,215
  FY 2007      4,926,768,142      130,595,526      58,769,494    71,826,032
  FY 2008      5,811,994,000      128,190,978      57,683,784    70,507,194
* Amounts from Table 3.


** Amounts calculated for each fiscal year using the unrounded audit net realizable value factor in Table 7.



Conclusion
If DLA does not modify its methodology, it will overstate future estimates of DLA EOU
inventory. The DLA methodology makes some questionable assumptions and DLA
should refine it to bring it in full compliance with SFFAS No. 3. The DLA methodology
lacked support for the cost avoidance amounts associated with the DOD reutilization
program and did not use actual recoveries for the transfer and donation and foreign
military sales programs. DLA needs to modify its methodology for estimated recoveries




                                                     11


associated with DOD reutilizations, transfers and donations, and foreign military sales if
it plans to use it for financial reporting purposes.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Director, Defense Logistics Agency, modify the existing
Defense Logistics Agency net realizable value methodology and apply these
guidelines:

        1. Develop supporting documentation for the cost avoidance amounts
associated with DOD reutilizations of A-1 and A-4 condition code items. Until the
development of more appropriate information to value DOD reutilization cost
avoidances, use the DOD Financial Management Regulation excess material fair
value rates as a basis for determining and applying a fair value percentage for DOD
reutilizations of A-1 and A-4 condition code items.

Management Comments
The DLA Director of Financial Operations and Chief Financial Officer commented for
the DLA Director and disagreed with the recommendation. He stated that we [DODIG]
acknowledged that entities which reutilize DLA EOU inventory avoid the cost of
purchasing new equipment. Further, he stated that the DLA methodology is based on the
assumption that DOD recipients of excess material have a valid requirement and comply
with existing laws and regulations. The Director concluded that all material in
serviceable condition (used or unused) should be valued at 100 percent of its latest
acquisition cost regardless of how it is disposed.

Our Response
The DLA comments are not responsive. DLA did choose to adopt the DOD FMR fair
value rates in its estimation methodology but did not apply the rates consistently. DLA
deviated from the more conservative 50 and 40 percent rates for valuing condition codes
A-1 and A-4 EOU items and raised them to 100 percent without any supporting
justification. DRMS disposes of EOU material to DOD organizations through the
reutilization process without reimbursement and there is no actual recovery. We
acknowledged that a DOD inventory control point might avoid the cost of a new item
when it is out of stock and an item from DRMS can fulfill demands. However, DOD
inventory control point reutilizations represented only 10 percent of all FY 2008 DOD
reutilizations. We do not believe that it is reasonable for DLA to assume that all DOD
organizations that reutilize “free issue” EOU items would otherwise purchase the items at
their full acquisition value and that DOD avoids an associated cost in all instances. We
believe that if DLA is going to make this assumption it should have data to support its
position and maintain this data to support an audit. We request that DLA reconsider its
position on Recommendation A.1 and provide additional comments in response to the
final report.




                                            12


       2. Use actual recovery amounts for transfers and donations.

       3. Use actual recovery amounts for foreign military sales.

Management Comments
The DLA Director of Financial Operations and Chief Financial Officer commented for
the DLA Director and disagreed with the recommendations. He stated that DLA must
follow the Federal Accounting Standards Advisory Board’s guidance, which defines net
realizable value as “the estimated amount that can be recovered from selling or any other
method of disposing of an item.” He further stated that, based on the guidance specified
in the DOD FMR, volume 15, chapter 7, the best value estimate of what can be recovered
from selling DLA excess inventory that is not in A-1 or A-4 condition code is the DOD
FMR fair value rate.

Our Response
The DLA comments are not responsive. DLA developed a methodology for estimating
the net realizable value of its EOU material at year-end that is predicated on the results of
the DRMS disposal operations during the previous year. For the sold and removed –
usable property and expended to scrap disposition categories, the DLA methodology uses
the actual DRMS sales revenue from the prior year to estimate what can be recovered for
the material remaining at year-end. In contrast, for the transfer and donations and foreign
military sales disposition categories, the DLA methodology uses estimated recoveries and
sales revenues that are materially greater than the actual DRMS recoveries and sales
revenues. The DOD FMR, volume 15, chapter 7, provides guidance for pricing excess
material for foreign military sales. However, DRMS only disposes of a small portion of
its excess material through actual foreign military sales, so the true amount that “can be
recovered” is minimal based on actual historical sales data. It is unreasonable to use
estimated sales revenues in place of actual revenues, especially when the actual revenues
are known and vary materially from the estimate. Specifically, DRMS data shows that
actual recoveries for items disposed of through transfer and donation are zero and actual
sales revenues for items disposed of through foreign military sales represented less than
one percent of the DLA methodology estimated sales revenue. Therefore, DLA is
overstating the value of its EOU inventory by estimating values when actual recoveries
are known to be minimal. We request that the DLA reconsider its position on
Recommendations A.2 and A.3 and provide additional comments in response to the final
report.




                                             13


Finding B. Application of the DLA Net
Realizable Value Methodology to DOD
Military Department EOU Inventory and
OM&S
The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
revised the DOD FMR to require the use of the DLA net realizable value methodology
before assessing whether it would result in a reasonable estimate of the $5.2 billion
Military Department EOU inventory and OM&S. The policy revision was premature
because DOD did not evaluate whether the composition of DRMS EOU inventory was
representative of Military Department EOU inventory and OM&S. As a result, future
estimates of Military Department EOU inventory and OM&S could be materially
misstated.

DOD Military Department EOU Inventory and OM&S
The Military Departments maintain EOU inventory through their respective inventory
control points and DOD policy requires them to value the inventory at historical or latest
acquisition cost until they revalue it to net realizable value or turn it over to DRMS. The
Military Departments also report OM&S that are maintained throughout their respective
field units and organizations. The Military Departments eventually dispose of EOU
inventory and OM&S through DLA’s DRMS. At the end of a financial reporting period,
the Military Departments report on-hand EOU inventory and OM&S that they have not
turned over to DRMS. The Military Departments must revalue this EOU inventory and
OM&S from historical cost or latest acquisition cost to net realizable value. Table 9
illustrates the values of Military Department EOU inventory and OM&S as of
September 30, 2008.

 Table 9. FY 2008 Military Department EOU Inventory and OM&S at Historical 

                                   Cost Value


    Military Department          Inventory         OM&S           Total
                                   Value           Value          Value
 Army                           $546,527,000     $737,202,000 $1,283,729,000
 Navy                             930,548,000     597,471,000  1,528,019,000
 Air Force                        472,249,000   1,904,436,000  2,376,685,000
  Totals                      $1,949,324,000 $3,239,109,000   $5,188,433,000

As of September 30, 2008, DOD reported approximately $11.3 billion of EOU inventory
and OM&S. As shown in Table 9, the Military Departments (Army, Navy, and Air
Force) combined reported approximately $5.2 billion, or 46 percent. DRMS reported
approximately $5.8 billion, or 51 percent (see Table 1 on page 4).




                                            14


DOD Net Realizable Value Methodology
The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
revised the DOD FMR to require the use of the DLA net realizable value methodology
before evaluating whether the composition of DLA EOU inventory was representative of
Military Department EOU inventory and OM&S. The composition of DLA EOU
inventory is not representative of Military Department EOU inventory and OM&S.

DLA developed a methodology to estimate the net realizable value of its EOU inventory.
In February 2009, DLA briefed its methodology to officials from the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer. In May 2009, the Office of
the Under Secretary of Defense (Comptroller)/Chief Financial Officer updated the DOD
FMR, volume 4 “Accounting Policies and Procedures,” chapter 4, “Inventory and Related
Property,” to include the DLA methodology for use by all DOD organizations to estimate
the net realizable value of DOD EOU inventory and OM&S. See Appendix B for the
details on the DOD methodology.

As discussed in Finding A, the DLA methodology calculates a net realizable value factor
based on the calculation of DRMS net recoveries. The DOD methodology applies this
factor to the Military Department’s EOU inventory and OM&S. Before the revision, the
DOD FMR specified valuing EOU inventory and OM&S at its net realizable value. For
inventory, the DOD FMR specified that the net realizable value was zero. For EOU
OM&S, DOD did not specify a net realizable value. The Military Departments reported
EOU OM&S at a net value of zero, which was consistent with their treatment of
inventory.

Composition of DOD Inventory
The DOD methodology does not consider the significant differences in the composition
of Military Department and DRMS EOU inventory. Specifically, the value of items
DOD inventory control points 6 turned in only represented about 7 percent of total DRMS
disposals and the condition of items DOD inventory control points turned in was better
than the items other DOD organizations turned in to DRMS.

The DOD methodology requires the Military Departments to value their EOU inventory
using the DLA net realizable value factor, which DLA calculates based on the inventory
that DRMS manages. However, the composition of inventory that DRMS manages is not
representative of the EOU inventory that the Military Departments maintain through their
own inventory control points. DRMS inventory only consists of a small percentage of
inventory that all DOD inventory control points turn in to DRMS. Specifically, DRMS
transaction files identifying the disposition of EOU items in FY 2008 showed that the
$1.9 billion value of items DOD inventory control points turned in represented only
approximately 7 percent of $28.3 billion total value for items that DRMS processed for
disposal. Based on this small percentage, it is not reasonable to use the composition of


6
 DOD inventory control points discussed in this section of the report consist of DLA and Military
Department inventory control points.


                                                   15


all DRMS inventory as a basis for valuing all EOU inventory that the Military
Departments maintain through their own inventory control points.

DRMS inventory other than items that DOD inventory control points turn in consists of
EOU equipment and other serviceable and unserviceable items that Military units and
other DOD organizations turn in. Equipment items are different from inventory items
because equipment items are not held for sale. Equipment items lose value, or
depreciate, over their expected useful life and may have lost some or all of their value
when DOD organizations turn them in to DRMS.

Items that other DOD organizations turn in are also not necessarily representative of the
items that DOD inventory control points turn in to DRMS and may not be in as good of a
condition. Table 10 illustrates the comparison, by item condition code grouping, of the
value of non-scrap material DOD inventory control points turned in to DRMS to the
value of items other DOD organizations turned in to DRMS.

                Table 10. Condition and Value of Non-Scrap Material


                       DOD Organizations Turn In to DRMS


                          Inventory     Percent       Other DOD                 Percent
  Item Condition           Control      of Total     Organization               of Total
       Codes             Point Value     Value          Value                   Value*
        A-1             $117,228,849      26%         $695,043,786                13%
        A-4                50,083,962      11          565,126,446                 11
 B-1, C-1, D-1, B-4,
      C-4, D-4              9,206,951       2          301,605,541                 6
      D-7, E-7,
      F-7, G-7            204,028,450      45        1,684,101,846                31
        H-7                22,732,200       5        1,441,036,844                27
     F-X, G-X,
        H-X                49,507,208      11          690,306,931                13
       Totals           $452,787,620                $5,377,221,394
* Rounded.

As shown in table 10, the condition of items DOD inventory control points turned in was
generally better than the material other DOD organizations turned in to DRMS. Of the
total value of items DOD inventory control points turned in to DRMS:

   •		 37 percent were classified as serviceable in condition code A-1 and A-4, and
   •		 16 percent were classified as unserviceable salvage (condition codes F-X, G-X,
       and H-X) and unserviceable condemned (condition code H-7).




                                           16


In contrast, of the total value of items other DOD organizations turned in to DRMS:

    •		 24 percent were classified as serviceable in condition code A-1 and A-4, and
    •		 40 percent were classified as unserviceable salvage (condition codes F-X, G-X,
        and H-X) and unserviceable condemned (condition code H-7).

Considering the differences in the condition of items turned in to DRMS by DOD
inventory control points and other DOD organizations, it is not appropriate to use a net
realizable value factor derived from all of DRMS inventory to value the EOU inventory
that the Military Departments maintain through their inventory control points.

Composition of Military Department OM&S
The DOD methodology does not consider the significant differences in the composition
of DLA EOU inventory and the Military Departments EOU OM&S. Military
Department OM&S include:

   •		 munitions, tactical missiles, and torpedoes;
   •		 spare and repair parts held for use in maintaining military equipment;
   •		 principal items such as uninstalled aircraft and missile engines, shipboard hull,
       mechanical and electronic equipment, aerial targets and drones; and
   •		 assets held for potential reuse within the DOD Component.

Munitions and tactical missiles represented approximately $106 billion, or 69 percent, of
the value of OM&S reported on the Military Department’s FY 2008 financial statements.
More significantly, as illustrated in Table 11, munitions and tactical missiles represented
approximately 91 percent of the FY 2008 Military Department EOU OM&S.

       Table 11. FY 2008 DOD Excess, Obsolete, and Unserviceable OM&S
                                                            Percent of EOU
                       EOU            EOU Munitions         Munitions and
   Military           OM&S              and Missile        Missile Value to
 Department            Value           OM&S Value         EOU OM&S Value
 Army                  $737,202,078       $737,202,078           100
 Navy                   597,471,024        380,454,009             64
 Air Force            1,904,436,000      1,830,609,249             96
  Totals             $3,239,109,102     $2,948,265,336             91

DRMS does not accept ammunition, explosives, and dangerous articles. The Military
Departments dispose of munitions and tactical missiles through the U.S. Army Joint
Munitions Command instead, which manages the demilitarization or destruction of most
munitions and tactical missiles. The DOD methodology requires the Military
Departments to value EOU OM&S using the DLA net realizable value factor. DLA
calculates its net realizable value factor based on the inventory that DRMS manages,




                                            17


which excludes munitions and tactical missiles. Therefore, it is not appropriate to use the
DLA net realizable value factor to value Military Department EOU OM&S, which is
comprised almost entirely of munitions and tactical missiles.

Conclusion
The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
revised the DOD FMR to require the use of the DLA net realizable value methodology
before assessing whether it would result in a reasonable estimate of the $5.2 billion
Military Department EOU inventory and OM&S. The policy revision was premature
because DOD did not evaluate whether the composition of DRMS EOU inventory was
representative of Military Department EOU inventory and OM&S. The Under Secretary
of Defense (Comptroller)/Chief Financial Officer should consider the differences in the
composition of DRMS and Military Department inventory and OM&S and pursue
additional net realizable value estimation methodologies. Delaying the implementation
of the DOD FMR requirement for DOD organizations to use the DLA methodology to
estimate the net realizable value of DOD EOU inventories and OM&S can prevent future
misstatements of DOD EOU inventory and OM&S.

During the audit, Military Department personnel involved with inventory financial
reporting also cited concerns with the DOD net realizable value methodology. DOD
should coordinate with the Military Departments and the U.S. Army Joint Munitions
Command to develop appropriate methodologies for estimating net realizable values
based on the unique composition of each respective organization’s EOU inventory and
OM&S.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer suspend implementation of the provisions in DOD 7000.14-R,
“DOD Financial Management Regulation,” volume 4, “Accounting Policies and
Procedures,” chapter 4, “Inventory and Related Property,” for valuing excess,
obsolete, and unserviceable inventory and operating materials and supplies held by
the Military Departments and:

Management Comments
The Deputy Chief Financial Officer commented for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and agreed with the recommendation. He stated
that they would suspend implementation of the policy for the Military Departments until
they could develop an appropriate methodology to value EOU inventory, operating
materials and supplies, and munitions and tactical missiles.

Our Response
The Deputy Chief Financial Officer’s comments are responsive, and no additional
comments are required.



                                            18


       1. Coordinate with the Military Departments to develop a methodology to
value Military Department excess, obsolete, and unserviceable inventory and
operating material and supplies other than munitions.

Management Comments
The Deputy Chief Financial Officer commented for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and agreed with the intent of the recommendation.
He proposed to use DRMS information to calculate a separate factor for estimating the
net realizable value of EOU inventory and OM&S held by the Military Department
inventory control points. The factor will not be used to calculate the net realizable value
of principal items, munitions and tactical missiles, or engines classified as OM&S.

Our Response
The Deputy Chief Financial Officer’s comments are responsive, and no additional
comments are required.

      2. Coordinate with the U.S. Army Joint Munitions Command to develop a
methodology for establishing the net realizable value for excess, obsolete, and
unserviceable munitions and tactical missiles.

Management Comments
The Deputy Chief Financial Officer commented for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and agreed with the recommendation. He stated
that he will be able to provide an estimated completion date by the end of the second
quarter 2010, once he obtained more information about the disposal process of EOU
munitions and tactical missiles.

Our Response
The Deputy Chief Financial Officer’s comments are responsive, and no additional
comments are required.




                                            19


Appendix A. Scope and Methodology
We conducted this performance audit from June 2009 through December 2009. We
performed the audit at the request of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. In the request for audit, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer asked that we limit our objective to determining
whether the methodology and assumptions provide an acceptable estimate of the net
realizable value for financial reporting and is in accordance with generally accepted
accounting principles. The request also specified that the review would not be to
determine if the data set is traceable to source documentation. We agreed and adjusted
our objective and scope accordingly. For example, we did not perform detailed tests to
verify the reported EOU inventory and OM&S balances; DRMS reutilization, transfer
and disposal amounts; item condition code; or cost avoidances associated with DOD
reutilizations.

We conducted the audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We performed the audit at DLA headquarters and DRMS. In addition, we made inquiries
to Military Department officials involved with the inventory and operating materials and
supplies reporting processes. We obtained and reviewed the SFFAS and DOD FMR
guidance for valuing EOU inventory and OM&S at their net realizable value.

We obtained DLA summary data necessary for us to perform the DLA net realizable
value calculation for FY 2006 through FY 2008. We obtained and analyzed the
individual DRMS transaction data for FY 2008. We analyzed and separated the
inventory control point and non-inventory control point transactions and summarized
acquisition values for each data set by disposition category and condition code. We
obtained the actual foreign military sales data and compared the data to the estimated
sales to determine the reasonableness of using foreign military sales estimates to calculate
the net realizable value factor.

Use of Computer-Processed Data
The DOD methodology for calculating the net realizable value factor relies on data
extracted from the DRMS Automated Information System. We analyzed this data only to
determine whether the DOD methodology and assumptions provide an acceptable
estimate of the net realizable value for financial reporting and is in accordance with
generally accepted accounting principles. Because of our limited audit objectives and
scope we did not determine the reliability, completeness, or accuracy of the data and this
did not materially affect our findings, conclusions, or recommendations.




                                            20


Use of Technical Assistance
The DOD Office of Inspector General, Quantitative Methods and Analysis Division
provided assistance in reviewing the mathematical calculations in the spreadsheets DLA
used to calculate the FY 2008 net realizable value for its inventory.

Prior Coverage
No prior coverage has been conducted on DOD valuation of excess, obsolete, and
unserviceable inventory and operating materials and supplies during the last 5 years.




                                            21


Appendix B. DOD Net Realizable Value
Methodology

      1)0 1) l'inancial ,\ lanag<'nU'nt R<'guhlion                              VolulII <' 4. C ha(!l <, r"
                                                                                           *  l\by 2009
      progr~ss.    If il will nOI ~ incorporalcd into in-house work il should be            r~corded    10
      invcnt ory a va ilable for sale.

                               3.     Invcntof"\' Work.in -process (Oiher Governmcnl ACl ivi lics).
      IIwento ry WNk-in-process (Other Gove rnment Acti vities) is used to record the cost of
      work-in _process p~...-forme d by ot ber federal govemmc nt agencies. A suhsidiary aeeouut
      mllS t be maintain ed for each CQntract to track Ihe value of work perfonncd as repn:scnted
      by progress payments. Sources for enlries to Ihis account inc lud e interage ncy agreements,
      in\'oi~s, payment vouchers. property acceptance docwu ents. and doc umented losses.


                               4.     lrl\'entof"\'     Work-in-process       (Govcmmcnt-F urnished
      l">-Iateri al (GH.,.!l

                                      a.     InV<'1l1or)' Work-in.proc~ss (Gn l) is IlSed to r~cord
      the val ne of that portion of government material furn ished to contractors and subcontra ctors
      (including ot her federal agencies) for the pcrfo nnance of DoD contracts. For th e pUlposes
      of this chaptcr. Ihis requirement also c;l:tcuds 10 property furnished to Olher Federal
      agencies and th ird-partics.

                                       b.      A s ubsidiary account lIlust be ma intained for each
      contract or Ihal is furni shed governm ent propc rty for usc in pcrfonnan ee of a cOlllract(s) and
      th .. t is to be returned upon compktion of the eontrac\. The subsidiary accounts must be
      s ubdi vided by contract Increases 10 this account mllSl ~ s upported by doc um~ntali on
      ev idcncing iss nes of govenunent makrial to contractors. whethcr from in ve ntory or from
      another contraclor in accordance wilh DoD instruct ions. lkcreascs to Ihis accounl onl y
      occur when thc end itcm is acc~pted by the DoD and received into invcntory. or th e
      mat eria! is relUmed 10 in vent ory or othef"\\'ise disposed of at OoO·s direct ion .

                                       c.      Periodicall y, but at least annuall y. this ae<:ount must
      be reconciled wi lh the property accountabi lit y records maintain ed by th e contractor. This
      reconciliation involves coordinat ion wilh th e assigned propcrty administrator for Ihe
      contrac\. Property admi nistraton; must bc providcd financial da ta on the va lue ofGFM for
      use in completing co ntrac\ d ose out or knnin3tion. On contract completi on or lerminati on
      Ihe account mUSI be adjuSled 10 refl c<:1 Ihe dispos ition of unused GF1\·r providcd to Ih e
      co ntractor fo r use in meetin g contractual requ irements.

                                     d.       Sources for entries to this accounl include shipping
      and iss ue documents. propcrty acccplancc documenls and property admini strator report s.
      m.. terial-retum doc uments, <.'ollect;on and depos it documents, scttlcnll"tlt agreements, and
      documented 10S.'les.

      0408      DETERt-.IIN[NG NET REALIZABLE VA LUE

                040801           Nel Realizahk Va lu c Factor. The Defensc Reutilization and
      Marketing Scrvice (DRMS) must annually caleu l;IIe the facto r for estimati ng the nct
      r.::ali7.able val ne of C'i:eess, obsolete, and uns~rviceable (EOU) invenlory or 0;"1&5 IlSing


                                                      4-39




                                                      22


1)01) l'imlllcial ,\ lanag{'uU'ut R{'gulalioll                             Volu l1I{, 4. C hapl{'r-l
                                                                                     *   l\by 2009
Ihe inSlructi ons al 040803 and Ihe fonnal at 040804. -l1le calcnlalion mllst be as of
September 30 of the fiscal year just completed. DRMS will base the factor Oil experience
for the fi scal )'e.IT just ending plus the 2 years preceding the fi scal year ending September
30, 20XX. ORr-.·IS mliSI submil the factor. along with support in g docnmentation. to Ih e
Ollie;: of th e Under Secretary of Dd"ensc(Cornptrollcr). Acco unting and FinlUlcc Policy
and 10 Ihe Office of t h~ Under SeeretaI)' of Defense (Logistics and Material Readiness) by
th.: 61t. working day of Octobn- fol!owed by a hru-d copy that is c.:rtifi cd oorrect by th.:
DU\ Complroller.

         040802             factor Availability_ For financial statement reporting, the factor will
be posted w ith the financia l reporting instructions on the OUSD(Comptroller) web si te.
( Fillallcilll Rlq HJrrim.! Gu idallce) The sallie factor llIust be used for reportin g the value of
excess. o bsolete. and unservi ceable inventory for Ih e first Ihree quarters oflhe subsequent
fiscal year. Steps I- II apply onl y to ()RMS while Steps 12 and 13 appl y to all Mililary
Departments lUld Components.

        040803.        lllstmction< for Calculation of Net Realizable Value Factor.
Instructions (Steps) for pcrfonning tbe calco lations lIsing the template at 040804 arc set
forth in steps.

                 A      Step I: For the curr.:nt .md two previous ye ~rs. obtain DRMS · S~les
Reveuue and DRMS · CQ1I1bined e)o,:pen~ amount for DoD Re lLt ilizations. Transfers &
Donations and Foreign Military Sales. Each of Ih e amoun1.'l called for in the subsequent
steps wi ll be the sum ofthe current and prcvious IWO years data.

               13.      Ste p 2: Obtain Ihe cumulative acqu isition valucs of the major
disposition adi vities as dcscrib.."d in Bl· B5. excl uding from these actil'itics the categories
of Abandoned or Destroyed. Ultimate Disposals and Other Dispositions.

                        l.      DoD R.:utilization
                        2.      Transfers ~nd Donations
                        3.      Foreign Milit<t ry S<tks
                        4.      Sold and Removed - Usable Property
                        5.      Expended to Scrap

                 C.    St{' p 3: Sum the acq uis ition va lues of the major disposition activities
listed in Dl thro ugh 85 of Step 2 to arrive al Total Dispositions Excl uding Liabilities and
enter Ihe res ult.

                D.    Shop -I: Obtain the cum ulative acquisi tion values hI' co ndition code
for Ihc Ihrce unilmeml or non· exchange di sposilion acti vities in D l·D3.

                        I       ])0 ]) ReUli lization
                        2.      Transfers and Do nations
                        3.      Foreigll /I-lil ilary Sales




                                                 4- 40




                                                 23


1)0 1) l'imlllcial ,\lanagl'IIU'lIt Rl'gul alioll                             VoIUI1I l' 4. C ha pll' r"
                                                                                         *  l\by 2009
                E.     Stl'P 5: Nexl, pool thc acq uisilion valnes for each condition code
(EI · E5) in accordance with Ihe dassificali ons contained in Ihe Fl\IS Prici ng Regulalion
(I'M1/. Voll/me 15, Clla/J"''' 7 . paragraph 070304).

                         I.    A-I (servic;::ab1e. unused)
                         2.    A·4 (serviceable. used)
                         3.    H- L 0-4. C- L C-4. D· 4 (scrviccahlc with qualification )
                         4.    0-7. E· 7. F· 7, G· 7 (serviceable with ql~llifi cat ion )
                         5.    11-7 (se1""\' iceable or nnserviceab le. in poor condit ion)
                         6.    F· X. G· X. H· X (uns;::r\"iccable, requiring maj or repairs)

                1'.     Stl'P 6: Subtract th e sllIn of th e condition code data for DoD
Rculilizalion. Transfers and Donalions. and Foreign 1I.-l ilitary Sales from the corresponding
year· end lolals of thcsc di sposilions. ThaI is, subtracl th;:: slep 4 amounts from the slcp 2
amounts and enler the resui lli.

                  G.     S..... p 7: DoD Rculilizations. Transfers ilnd Donations. mId t' orcign
1I.Iilitary Sales should he I'alued at fair value. 'n, l' fair val ue of excess. obsolete, and
unserviceable (EOU) invCTltory to DLA should be no less thanlhe revenue that DoD could
ha'"c rcceivcd for the EOU itcm by directing it to Foreign Military Sales. (Sec FMH.
Voll/me J 5, Cill/pte,. 7 . paragraph 07030 4)

                             Usc the latest acqu isition CQst as fair value of se1""\'ieeable
used and unused ",atend (A·] , A·4) u"d~.,. R"util i ~.a lion. Transfers ;md Donations, and
Foreign 1I.Iilit:l.ry Sales.

                            2.    Use Ihc FMS pn ce ntage fa~1or for co ndili on codes (0-1 , C_I.
D-l. B· 4. C·4. 1)... 4) ( " 'MN V"II/me 15, CIII/lIft>r 7. paragraph 070304) apply the faclor to
the acquisition cost lUlder the Relllili;O:3tion. Transfers and Donations, and For"ign Military
SaJes headin gs.

                        3.       Use the FMS percentag~ fact or for conditi on eodes (1)...7, E·7.
F· 7, G-7) ( FMH. !I,nl/me. 15, CIIfIP''''' 7 , paragraph 070304) appl y the faclor 10 Ihe
acquis ition cost under Rcutil i7.ati OIl. Transf",.,. and I)onations, and For"igl' Military Sales.

                          4.       Usc thl' FMS percentage factor for condition code (B-7)
(FMH. !loll/me. 15. C III1p1et' 7 . paragraph 070304) apply the fact or 10 the acquisition cost
under the R"utili7.ati on. Transfcrs and Donati ons, and     For~ign   Mil itary S:l.lcs headin gs.

                        5.     Using the FMS percentage factor lor condition codes (F· X.
G-X. B-X) ( " ,\lll r 'o lllme 15, Clw/lfe,. 7 . l):I.ragraph 070304) apply the factor to the
aC(luisit ion cost under Ihe Relltilization, Transfers and Donations, and Foreign Mi litary
SaJ~"S hcading~ .


               H.      Sh' p 8: Allocate DRMS ' Sales Revenue from Step I by Ihe ratio of
acquisition cost of Sold and Removed to E:..:pend ed to Scrap.


                                                    4· 41




                                                    24


 1)01) l'imlllcial ,\ lanag{'uU'ut R{'gulalioll                                VO!U I1I{, 4. C hapl{'r"
                                                                                         *   l\b y 2009
                      I.       St{'{1 9: Sum all n:coveries from Stcps 7 and 8 within each major
 d i~poo i tion   activity. .:.g.. " 000 RI:utilization." and aC"ro~s all major disposition activ ities.

                     J.     Sh' p 10: SubtTaC"t DRl\·IS · Expenses (RT DS) fro m the sinn of all
 r~coveries       computed in SI.:.'P 8 to nrrl,·e 31 DRl\·IS· N~I R~co\'~ry.

                 K        Step 11 : Divide Net Reco,·cry from Step 10 by Total Dispositions
Excludin g Liabilities from Step 3 10 gcnerale Ihe NRV Factor.

                 L       Stl' P 12 : Obtainlhc EOU invcntol)· balanc~ on S.:.'ptcmbcr 30, 20XX
  (Eac h r.:poning entity will havc to lise Ihe factor derivcd in step 11 to calculate Ihe value
 ofits EOU.)

               M.      Sh'p 13: Compute the NRV of the EOU inventory held at year-end
 hy multiplying the NRV Faelor in St.:.'p lithe EOU inventory held at year.~nd in Sl~ 12.
 (Each rcponing ~ntity will hal·c to usc the laetor derived in step 11 to calculate the va lue of
 its EOU.)

         040804 .      The Templtl1c for Ca1cu latin j;t Net Rcali7.abk Val ue Factor- is
 shOI\Tl on the next rage.




                                                    4-42




                                                   25


                                           Methodology for Calculating Net Realizable Value
                                                                         NRV TEMPLATE

    Data Source             Part 1: Expenses and Recovery
   GLAC 457912*      DRMS Sales Revenue
                                                                                      Step 1
 DRMS Expense Report DRMS Expenses -- RTDS

                                  Annual Cumulative Acquisition Values of DRMS Dispositions                              DRMS Annual Recoveries
                                                                                                     Foreign Military      Sales Revenue or     Total Recoveries
                                                Disposition                      Acquisition Value   Sales Percent**       Cost Avoidance**         by Type
     DAISY A0530            DoD Reutilization                                         Step 2
                               DAISY Adjustment                                       Step 6
                               Serviceable, unused (A-1)
                               Serviceable, used (A-4)
                               Serviceable with qualification (B-1, C-1, D-1,
    DAISY Yearly               B-4, C-4, D-4)
Cumulative Reutilizations      Serviceable with qualification (D-7, E-7, F-7,         Step 4               Step 7                  Step 7
  by Condition Code            G-7)
                               Serviceable, in poor condition (H-7)
                               Unserviceable, requiring major repairs (F-X, G­
                               X, H-X)                                                                                                                         Step 9
     DAISY A1050            Transfers and Donations                                   Step 2
                               DAISY Adjustment                                       Step 6
                               Serviceable, unused (A-1)
                               Serviceable, used (A-4)
                               Serviceable with qualification (B-1, C-1, D-1,
    DAISY Yearly
                               B-4, C-4, D-4)
Cumulative Transfers and
                               Serviceable with qualification (D-7, E-7, F-7,         Step 4               Step 7                  Step 7
 Donations by Condition
         Code                  G-7)
                               Serviceable, in poor condition (H-7)
                               Unserviceable, requiring major repairs (F-X, G­
                               X, H-X)                                                                                                                         Step 9
     DAISY A1010            Foreign Military Sales                                    Step 2
                               DAISY Adjustment                                       Step 6
                               Serviceable, unused (A-1)
                               Serviceable, used (A-4)
                               Serviceable with qualification (B-1, C-1, D-1,
    DAISY Yearly
                               B-4, C-4, D-4)
  Cumulative Foreign
                               Serviceable with qualification (D-7, E-7, F-7,         Step 4               Step 7                  Step 7
   Military Sales by
   Condition Code              G-7)
                               Serviceable, in poor condition (H-7)
                               Unserviceable, requiring major repairs (F-X, G­
                               X, H-X)                                                                                                                         Step 9
     DAISY A1190            Sold and Removed -- Usable Property
                                                                                      Step 2                                       Step 8
     DAISY A1450            Expended to Scrap                                                                                                                  Step 9
                            Total Dispositions Excluding Liabilities                  Step 3

                            Part 2: NRV Calculation
                                                                                                     **Cost Avoidance of Foreign Military Sales (FMS) and
                            DRMS Annual Recoveries                                    Step 9
                                                                                                           DoD Reutilizations and Transfers and Donations
                            DRMS Annual Expenses                                      Step 1               taken from FMS downgrade percentages in
                                                                                                           Financial Management Regulations, Vol 17, 070304;
                            DRMS Net Recovery (= Recoveries - Expenses)              Step 10               (Cost Avoidance =
                            Total Dispositions Excluding Liabilities                  Step 3
                            NRV Factor (= Net Recovery / Total Dispositions)         Step 11
                            EOU Inventory, DLA Balance Sheet as of 09/30/06          Step 12
                            NRV (=NRV Factor x Ending EOU Inventory)                 Step 13




                                                                                  26


Appendix C. Flowchart of DLA Net Realizable
Value Methodology
                              Calculate Total Recoveries (Estimated and Actual)


                                                                                                     (D) Actual
     (A) Estimated                  (B) Estimated               (C) Estimated
                                                                                                   Recoveries of
     Recoveries of                  Recoveries of               Recoveries of
                                                                                                      Usable
         DOD                        Transfers and                  Foreign
                                                                                                   Property and
     Reutilizations                   Donations                 Military Sales
                                                                                                    Scrap Sales




                                                                                                       (E) Total
     (A) + (B) + (C) + (D) = (E)
                                                                                                      Recoveries



                       Calculate Total Acquisition Value of Disposals

                                                                                 (K) Acquisition
                               (I) Acquisition       (J) Acquisition
     (H) Acquisition                                                                Value of
                                   Value of             Value of
     Value of DOD                                                                    Usable
                               Transfers and             Foreign
      Reutilizations                                                              Property and
                                 Donations            Military Sales
                                                                                  Scrap Sales



                                                                        (L) Total Acquisition
             (H) + (I) + (J) + (K) = (L)                                 Value of Disposals




 Calculate Net Realizable Value Factor                                 Calculate Estimated Net Recoveries

                                                                   (G) Estimated
            (G) / (L) = (M)                                             Net
                                                                                                       (E) – (F) = (G)
                                                                    Recoveries

             (M) Net
            Realizable                                                                   (F) DRMS Annual
           Value Factor                                                                      Expenses




 Calculate Estimated Net Realizable Value of DLA Excess, Obsolete, and Unserviceable Inventory


          (N) DLA Fiscal
            Year End
                                                                  (O) Estimated Net Realizable Value of DLA
             Excess,
          Obsolete, and
                                       (M) x (N) = (O)              Fiscal Year End Excess, Obsolete, and
          Unserviceable                                                     Unserviceable Inventory
            Inventory




                                                         27


Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                       OFFICE OF THE UNDER SECRETARY OF DEFE N SE
                                         1 100 DEFENSE PE N TAGON
                                        WASHINGTON. DC 20301·1.100

                                                                                    JAN 22 2010
    COMP T flO~




        MEMORA NDUM FOR DEPA RTMENT OF DEFENSE INSPECTOR GENERAL,
                         DIRECTOR DEFENSE BUSINESS OPERATIONS

        SUBJECT: iJratl Audit Report, "000 Methodology for the Valuation of Excess,
                 Ohsolete, And Unserviceable Inventory and Operating Materials and
                 Supplies," (Project No. D2009 - DOOOFR-02 I 2.000)

               This memorandum responds to recommendations contained in the subject report
        issued December 10,2009. You requested a response on the recoillmelldalions for
        Findillg 8 , which was addressed to the Under Secretary of Defense (Comptroll er).

                 We concur with your recommendation to suspend implementation of the net
        realizable value methodulugy required by the DoD Financial Management Regulation for
        the .V1!1i tary Departments until we are able to comply with recommendations R.I tlnd B.2 .
        Vlh ile we agree wi th your logic and intent for recommendation B.l , we propose that we
        have the flexibility to consider an alt~rnate path as set fonh in the anachment to thi s
        memorandum. We accept recommendation B.2 without co ndition.

       ~nt              of co ntact i                     can be reached by telephone at
       _ or~ma il




                                                           !fil--
       Attachment:
                                                      ~
                                                      Ma E. Easton
                                                      D puty Chief Financial Officer


       As stated




                                                 G
           of the Under Secretary of Defense (Comptroller) comments to 0 00. 10 draft
  report , " DoD Methodology for the Valuation of Excess. Obsolete. and Unserviceable
In ventory and Operating Material s and Supplies, Project No . D2009-DOOOFR-0212.000,
                                    December 1 1, 2009


Recomml'nd .. tion B: We recollllllend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer slispend implementation of the provisions in DOD
7000. )4-R. "000 Financial MiIIlilgcmcnt Regulation." volume 4. "Accounting Policies and
I)rocedurcs,"' chapter 4, " Inventory and Related Property."' for valuing excess. obso lete, and
unse rviceabl e inventory and operating materials and supplies held by the Military
Departments ...

OlJSD(Q RESPONSE: The Department concurs. We w11l suspend implementation of
the policy for Milita ry Departments unti l recommendation s B. I and B.2 arc closed. In
the meantime, we will fo ll ow the ronner policy of detennining NRV for the financial
state mcnts of the Military Departmcnts, i.e., dee ming NRV to be $0.

Recommend'lrion B.l : Coordinate with the ·Iilitary Departments to develop a methodology
to value i\'l ilitary Depm'tlllent excess, obsolete. lUld unserviceable inventory and operating
material and supp lies other than munitions.
                               Click to add JPEG file
o   SJ)(Q RESPONSE: T he Department concurs with the intent of the recommendation. We
intend to use infonnation from DRMS to cal culate a separate f:,ctor for estimating the NRV of
EO U inventory and opernting ll1uterials and supplies (OM&S) held by the Military Departments.
For material classifi ed as O~\'l&S. this factor will not be used to calculate the NRV of princ ipal
items. munitions <U1d tactical mi ssiles. or engines. We wi ll segregate the value of the IC P turn·ins
and the amounL~ recovered from the disposal of that same inventory, whether cash or an imputed
recovery, and calculat e a separate NRV factor for use by the Mi litary Depmtment. Usin g this
method has the advantage of consistency and transparency in th e development of th e factor. We
will fum ish an estimate of the completion date in response to the fina l report .

Recomml'nd:rtion B.2: 2. Coordinate with the U.S. Ann )' Joint Munitions COlllmand to
develo p a methodo logy for establishin g the net realizabl e value for excess, obsolete. and
unsl!rviceable Illuniti ons and tactical missi les.

O USO(Q RESPONSE: The Department concurs . G iven the a mount of tile munition s
EOU os 0 percellt of toto 1 OM&S. i.e. , opproximately 69 percellt of the totol OM& EOU
amount reported by the Mi litary Department s based on the data in your report, it is
appropriate to develop a separate factor. Howe\'er, until we obtain more information
about th e di sposal process we can not otIer a meanin gfu l date as to when we wi ll close the
recommendati on. By the end of tile second quarter. 20 10 we will provide a da te by whi ch
we will complete the actions needed to establish a methodology for estimatin g the NRV
of EOU munitions and tactical mi ssiles.
Defense Logistics Agency Comments






                                            DEFENSE LOGIS T ICS AGENCY
                                                       HEADQUARTERS
                                        8725 J OHN J . KINGMAN ROAD, SUITE 2533
                                           FORT BELVOIR. VIRGINIA 22060-6221

                                                                                          JAN 22 20i9
  IN   =~~~ TO 1-89


               MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL



               SUBJECT: Draft Audit Report: Department of Defense Methodology for the Valuation of
                            Excess, Obsolete, and Unserviceable Inventory and Operating Materials and
                            Suppl ies (project No. D2009-DOOOFR-Q212.000).

                      The Defense Logistics Agency has reviewed the subject draft audit report. A copy of our
               response to the recommendations for Finding A is attached.




                                                               Director, Financial Operations
                                                               CbiefFinaDcialOfficer


               Attachment
        Defense Logistics Agency (DLA) Management Comments on
     Departm ent of Defense Office of Inspector General Draft Audit Report
   DOD Methodology for the Valuation of Excess, Obsolete, and Unserviceable
               Inventory and Operating Materials and Supplies
                     (Project No. D2009-DOOOFR-0212 .000)
                           Dated December 10, 2009


Finding A. DLA Methodology for Estimating Net Realizable Value of EOU
Inventory

Recommendation A: We recommend that the Director, Defense Log istics Agency,
modify the existing Defense Logistics Agency net realizable value methodology and
apply these guidelines:

Recommendation A1 : Develop supporting documentation for the cost avoidance
amounts associated with DOD reutilizalions of A-1 and A-4 condition code items. Until
the development of more appropriate information to value 000 reutilization cost
avoidances, use the DOD
Financial Management Regulation excess material fair value rates as a basis for
detenmining and applying a fair value percentage for DOD reutilizations of A-1 and A-4
condition code items.      Click to add JPEG file
DLA Response: Non-concur. The DODIG acknowledges that entities which reutilize
OLA excess, obsolete and unserviceable inventory in serviceable condition (used or
unused) avoid the cost of purchasing new equipment. The DODIG expressed concerns
with estimating the value of such inventory at the cost of new equipment (100% of
Latest Acqu isition Cost) without a documented valid requirement for the equipment
reutilized and documented proof of the cost avoidance.
DLA's methodology is based on the assumption that laws and regulations are followed .
It is not reasonable to expect DLA to police DOD recipients of excess material by
verifying a bona fide need for reutilized equipment. DLA's proposed methodology is
based on the presumption of a valid req uirement and the assumption that reutilization
occurs as a result of complying with DOD Reutilization Defense Material Disposition
Manual 41 60.21 Chapler 5 which slates,
      wOOD policy is to reutilize excess, surplus and FEPP (Foreign Excess Personal
      Property) to the maximum extent feasible to fill eXisting needs, and to satisfy
      needs before initiating new procurement or repair. All DOD activities shall screen
      available excess assets and review excess asset referrals for those assets which
      cou ld satisfy valid needs."
Therefore, all material in serviceable condition (used or unused) should be valued at
100% LAC regard less of how it is disposed.


                                            1




                                                       31
Recommendation A2: Use actual recovery amounts for transfers and donations.

Recommendation A3 : Use actual recovery amou nts for foreign military sales.



DLA Response: Non-concur. OLA agrees with the DODIG that we must follow FASAB
guidance. FASAB "Statements of Federal Financial Accounting Concepts and
Standards" Append ix E defines Net Realizable Value as: ''The estimated amount that
can be recovered from selling, or any other method of disposing of an item less
estimated costs of completion, holding and disposal." Additionally, DOD FMR Volume
15, Chapter 7 070304 stipulates:
    "the selling price of excess materiel , exclusive of repair or modification costs, shall
    be the highest of (1) its market value (which includes nonrecurring costs as
    computed in paragraph 070305) as hardware, or (2) its scrap value plus
    nonrecurring costs and the last major overhaul costs incurred ... or (3) its fair value
    (plus nonrecurring and pro-rated major overhaul costs) computed using the fair
    value rates contained in this subsection."
For that reason , the value ascribed to DLA inventory not in A1 or A4 condition ,
regardless of disposition method, should be its market value ca lculated by using
percentages provided in FMR Volume 15, Chapter 7, paragraph 070304. This is the
                            Click to add JPEG file
best estimate of what can be recovered from selling.




                                             2




                                                         32
Glossary

Asset. An item that is owned and has a probable economic benefit that the owning entity
can obtain or control.

Acquisition Cost or Acquisition Value. The amount identified as the original cost or
estimated replacement cost paid for property.

Carrying Amount. The net amount at which an asset or liability is carried on the books
of account.

Condition Code. A two-digit code consisting of an alpha Supply Condition Code in the
first digit and a numeric or alpha Disposal Condition Code in the second digit. A
combination of the Supply Condition Code and the Disposal Condition Code, which most
accurately describes the item’s physical condition, constitutes the Federal Condition
Code for reutilization program screening and review.

Cost Avoidance or Avoidable Cost. Action taken to reduce future costs or a cost
associated with an activity that would not be incurred if the activity, such as an alternate
purchase, were not performed.

DOD Reutilization Disposition Category. A DOD organization identifies a use for an
item and orders it from DRMS.

Economic Benefit. A benefit quantifiable in terms of money, such as revenue, net cash
flow, or net income.

Excess (Inventory or Operating Materials and Supplies). Inventory that exceeds the
demand expected in the normal course of operations because the amount on hand is more
than can be sold in the near future.

Expended to Scrap Disposition Category. If DRMS is unable to dispose of an item
through other means and DOD restricts sale to the public, DRMS sells the item as scrap
material to a contractor based on current market rates.

Fair Value. The price for which an asset could be bought or sold in an arm’s-length
transaction between unrelated parties (for example, between a willing buyer and a willing
seller).

Foreign Military Sales Disposition Category. Foreign governments approved to receive
excess Defense articles order an item from DRMS. These orders can be grants (free­
issue) or the countries reimburse the DOD (sale).




                                             33

Grant. Transactions in which one party to the transaction receives value without directly
giving or promising value in return.

Historical Cost. All appropriate purchase, transportation, and production costs incurred
to bring the and item to its current condition and location.

Inventory. Tangible personal property held for sale in the process of production for sale,
or to be consumed in the production of goods for sale or in the provision of services for a
fee.

Inventory Control Point. An organizational unit or activity within the DOD supply
system that is assigned the primary responsibility for the material management of a group
of items either for a particular Military Service or for the Department of Defense as a
whole.

Latest Acquisition Cost (as a valuation method). A valuation method that provides that
all like units be valued at the invoice price of the most recent like item purchased, less
any discounts, plus any additional costs incurred to bring the item to a form and location
suitable for its intended use.

Net Realizable Value. The estimated amount that can be recovered from selling, or any
other method of disposing of an item less estimated costs of completion, holding, and
disposal.

Obsolete (Inventory or Operating Materials and Supplies). Inventory that is no longer
needed because of changes in technology, laws, customs, or operations.

Operating Materials and Supplies (OM&S). Tangible personal property consumed in
normal operations.

Sale. A transaction between two parties where the buyer receives goods, services, or
assets in exchange for money.

Sold and Removed Useable Property Disposition Category. If DRMS is unable to
dispose of an item through other means and DOD does not restrict sale to the public,
DRMS sells it to a contractor at a fixed rate and the contractor sells the item to the public.

Transfer and Donation Disposition Category. Other Federal agencies or state or local
governments identify a use for an item and orders it from DRMS.

Unserviceable (Inventory or Operating Materials and Supplies). Damaged stock that
is more economical to dispose of than to repair.




                                             34


